              U.S. Department of Energy
              Office of Audit Services




Audit Report

Implementation of Indications, Warning,
Analysis and Reporting Capability




DOE/IG-0631                               December 2003
IMPLEMENTATION OF INDICATIONS, WARNING, ANALYSIS AND
REPORTING CAPABILITY

TABLE OF
CONTENTS



               Reporting Cyber Security Incidents

               Details of Finding ........................................................................1

               Recommendations and Comments.............................................4


               Appendices

               1. Objective, Scope, and Methodology ......................................6

               2. Prior Audit Reports.................................................................7

               3. Transcribed Management Comments....................................9
IMPLEMENTATION OF INDICATIONS, WARNING, ANALYSIS AND
REPORTING CAPABILITY

Reporting Cyber Security   A significant number of the Department of Energy (Department) sites
Incidents                  were not taking appropriate action to report computer attacks, probes,
                           or compromises. Specifically, computer incidents were not always
                           being reported to the Computer Incident Advisory Capability (CIAC) as
                           required by Departmental guidance. Office of Inspector General
                           Technology Crimes Section (Technology Crimes) and Federal
                           counterintelligence officials were also not always notified of incidents
                           as appropriate.

                           Despite policy changes designed to increase awareness and specific
                           reporting guidance from the Office of Management and Budget
                           (OMB)1, most sites were not reporting malicious or persistent computer
                           attacks. For example, 43 of 80 (54 percent) of the Department's
                           organizations made no reports of malicious activity to CIAC during
                           FY 2002. As noted by senior cyber security officials at Headquarters, it
                           is improbable that non-reporting organizations were not subject to
                           significant or unusually persistent attacks or probes considering the
                           dramatic increase in malicious attacks or reconnaissance of Federal
                           systems. This view is bolstered by data furnished by the Federal
                           Computer Incident Response Center indicating that computer incidents
                           increased Government-wide by more than 7,000 percent during
                           FY 2002.

                           Even when organizations reported successful intrusions to CIAC, the
                           incidents were not always reported to law enforcement or Federal
                           counterintelligence officials for investigation. For example, only 20 of
                           49 (41 percent) successful intrusions were reported to Technology
                           Crimes officials. In seven of the cases that were reported, site
                           personnel took action to restore the systems without preserving
                           evidence needed to investigate the attack or identify its source. This
                           action made the investigation and determination of the source of the
                           computer attack difficult or impossible and increased the risk that the
                           same attacker could penetrate additional systems using the same
                           techniques.

                           Additionally, attacks or probes emanating from foreign sources were
                           not always brought to the attention of appropriate Federal
                           counterintelligence officials. For example, a senior counterintelligence




                           1
                            OMB Memorandum on "Improved Fed CIRC Incident Reporting System," of
                           November 14, 2002.

Page 1                                                                                Details of Finding
                         official at Headquarters told us that he was not informed of 9 of 12
                         foreign source intrusions that occurred at one national laboratory during
                         FY 2002. A local counterintelligence official for that same site also
                         told us that computer security officials had not told him of the
                         intrusions.


Monitoring and Control   Policy weaknesses and the lack of focused and quantifiable
                         performance measures to guide day-to-day operations contributed to
                         observed problems. The Department had not developed and
                         implemented a program to monitor security incident reporting and had
                         not established performance goals to measure the success of policy
                         implementation.

                                                       Policy Issues

                         While the Department implemented policy changes in response to our
                         previous audit, they were not completely effective and did not
                         substantially increase reporting. The policy, DOE Notice 205.4
                         Handling Cyber Security Alerts and Advisories and Reporting Cyber
                         Security Incidents, gave sites wide discretion in deciding what incidents
                         to report. While the intent of the Notice was clearly to protect all of the
                         Department's cyber related assets, it appears that many sites primarily
                         considered only local impacts when determining whether to report an
                         incident. For example, an official at one site indicated that he reports
                         items at his discretion and those that result in damage in excess of
                         $5,000, a practice that does not necessarily consider the potential for
                         harm to other facilities. The lack of site-level commitment in this area
                         was further demonstrated by the fact that only two of the nine
                         organizations we reviewed had developed local guidance or completed
                         required modifications of their Cyber Security Program Plans to address
                         reporting to Technology Crimes and Federal counterintelligence
                         officials. Even though recommended in our previous report, the
                         Department elected not to require negative reporting. Such a provision
                         would have most likely increased reporting of significant incidents by
                         requiring site officials to certify that no reportable events had occurred.

                                                Performance Measurement

                         The Department lacked focused and quantifiable performance measures
                         to guide day-to-day operations relating to cyber security incident
                         reporting. While the Department is in the process of implementing a




Page 2                                                                         Details of Finding
                           metrics program for measuring the success of its cyber security
                           program as required by the Federal Information Systems Management
                           Act of 2002 (FISMA), it had not developed performance metrics to
                           manage expectations at the working level. Also, we found that only
                           one of the six sites included in our review had established limited
                           performance measures for incident reporting and response. None of the
                           sites we collected data from had developed performance measures
                           related to timeframes for reporting incidents to CIAC, Technology
                           Crimes, or Federal counterintelligence officials.


Information Technology     External attacks are generally intended to deny use of the information
Resources Remain at Risk   system to its users, destroy data, and/or deface web pages. Untimely
                           and inaccurate incident reporting impedes the Department's ability to
                           adequately protect information resources, increases information systems
                           costs, and affects mission accomplishment. The Department may also
                           be unable to prevent or detect emerging or recurring attacks and lacks
                           information necessary to adequately assess risk and allocate or support
                           requests for cyber related funding. Notably, costs to analyze and
                           remedy the successful compromises reported in FY 2002 may have
                           been avoided or minimized by timely reporting and responses. As
                           contemplated by FISMA, damage to computer systems may be
                           prevented or minimized by complete and timely reporting by
                           organizations, followed by analysis and warning by an agency or
                           Government-wide incident advisory service.

                           Finally, the failure to provide timely reports of intrusions and
                           preservation of evidence hampers investigative efforts by Technology
                           Crimes officials and may prevent or restrict Federal counterintelligence
                           officials from responding to threats emanating from foreign sources. A
                           recent series of events demonstrates how a well-managed Department-
                           wide incident reporting and response capability can enhance cyber
                           security controls. In February 2003, one of the Department's national
                           laboratories was the subject of an intrusion of multiple systems on its
                           network. Once the intrusion was detected, the laboratory reported the
                           incident to CIAC. CIAC broadcast details of the incident to the
                           Department. As a result of the CIAC notice, five additional laboratories
                           detected and responded promptly to similar intrusions.

                           To its credit, the Department is currently engaged in drafting
                           improvements to its policy. For example, officials from the Office of




Page 3                                                                         Details of Finding
                      Chief Information Officer and various program officials recently
                      discussed requiring a monthly verification from sites that have not
                      reported incidents. To be fully effective, we believe policies requiring
                      negative reporting need to be supported by an up-to-date inventory of
                      reporting sites. Since the date of our last report specific to this area, the
                      Department has modified and is continuing to refine its inventory of
                      reporting sites. For example, while 141 sites were charged with
                      providing reports in FY 2001, reporting activity was only tracked for 80
                      sites during FY 2002. We have made recommendations designed to aid
                      the Department in its effort to improve performance in this vital area.

                      To improve cyber security incident reporting, we recommend that the
RECOMMENDATIONS       Chief Information Officer:

                            1. Complete revisions and issue revised policy regarding incident
                               reporting. At a minimum, include requirements for negative
                               reporting and mechanisms to ensure that Program Cyber
                               Security Plans and Cyber Security Program Plans contain
                               reporting guidance; and,

                            2. Finalize the inventory of sites that should be reporting cyber
                               security incidents.

                      To correct the specific issues noted in this report, we recommend that
                      the Under Secretary for Energy, Science and Environment and the
                      Administrator, National Nuclear Security Administration require
                      organizations within their responsibility to:

                            3. Amend and/or develop overall Program Cyber Security Plans,
                               reporting element-level Cyber Security Program Plans, and
                               local guidance to address cyber security incident reporting
                               consistent with Departmental guidance; and,

                            4. Establish performance goals to measure implementation of
                               reporting guidance and policies.

MANAGEMENT REACTION   Management's formal comments were not received in a timely manner
                      for inclusion in this report.2 In presenting management's position, we
                      utilized draft comments that were authenticated by responsible program
                      officials at the exit briefing.



                      2
                      The Office of Inspector General issued the draft report on August 1, 2003. As of
                      December 11, 2003, management had not provided formal written comments.

Page 4
                                                               Recommendation and Comments
                   Management generally concurred with our recommendations and made
                   technical comments that have been reflected in the report. In addition,
                   management stated that a revised policy, Incident Prevention, Warning,
                   and Response Manual, is currently in draft that will help address
                   incident reporting concerns revealed in the audit. Management
                   indicated that organizational changes in the Department affected
                   development of an accurate listing of reporting sites, but that the list is
                   now complete and is being used to monitor reporting efforts. While
                   management agreed with the need for amending security plans and
                   guidance, it believed that automated measures would also be necessary
                   to ensure effectiveness. Finally, management felt that an expanded
                   audit scope could have provided a more complete picture of the issues
                   relating to incident reporting across the complex. Comments provided
                   by management officials are transcribed in Appendix 3.


AUDITOR COMMENTS   Management's comments are generally responsive to our
                   recommendations. Future audits, in particular those required by the
                   Federal Information Security Management Act, will test the
                   effectiveness of the Department's forthcoming guidance in this area.
                   Finally, we believe that our audit scope was sufficient to satisfy our
                   objective and support our conclusions.




Page 5                                                                           Comments
Appendix 1

OBJECTIVE     To determine whether the Department had improved its cyber security
              incident reporting process and had sufficient information to manage its
              network intrusion threat.


SCOPE         The audit was performed between December 2002 and July 2003.


METHODOLOGY   We evaluated the implementation of Indication, Warning, Analysis and
              Reporting Capability at five field sites and Headquarters.

              To accomplish our objectives, we:

                    •   Reviewed federal regulations, such as the OMB Circular A-
                        130 Appendix III, Departmental Directives, and NIST
                        guidance pertaining to cyber security incident reporting. We
                        reviewed information contained in OMB Circular A-130
                        Appendix III that requires that agencies ensure that there is a
                        capability to provide help to users when a security incident
                        occurs and to share information concerning common
                        vulnerabilities and threats;

                    •   Reviewed relevant reports issued by the Office of Inspector
                        General and the General Accounting Office;

                    •   Held discussions with officials and staff at various
                        organizations; and,

                    •   Assessed organizational security policy and planning
                        documentation.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Performance
              standards were not established for the area of cyber security incident
              reporting and, therefore, we could not assess how they might have been
              used to measure performance. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We did not rely on
              computer-processed data to accomplish our audit objective.

              An exit conference was held with appropriate Headquarters officials on
              November 20, 2003.

Page 6                                         Objective, Scope, and Methodology
Appendix 2
                                       PRIOR AUDIT REPORTS


    •    Major Management Challenges and Program Risks - Department of Energy, (GAO-03-100,
         January 2003). The report noted that the Department had upgraded its physical, cyber, and
         document security. However, the terrorist attacks of September 11, 2001, changed the
         threat that the Department had planned for and will likely require new security measures
         and additional resources. One of the Department's performance and accountability
         challenges is to address security threats and problems. The cyber security area is an area
         where the Department had initiated upgrades, but more improvements are warranted. The
         Department had problems in contingency planning, computer incident reporting, and
         training. These weaknesses and others increased the risk that critical systems could be
         compromised or disabled by malicious or unauthorized users.

    •    Information Security: Vulnerabilities in DOE's Systems for Unclassified Civilian Research,
         (GAO/AIMD-00-140, June 2000). The Department had not instituted a consistent and
         comprehensive program of security incident reporting. While the Department had reported
         significant improvements beginning in 1999, not all Department facilities had been
         reporting incidents to Computer Incident Advisory Capability (CIAC), and incidents were
         not consistently or comprehensively reported. Although few of the laboratories consistently
         reported all computer security incidents at their sites, the number, variety, and seriousness
         of those incidents that had been detected and reported had grown dramatically in recent
         years. CIAC's effectiveness had been limited because only a few of the Department's sites
         were reporting.

    •    Management Challenges at the Department of Energy, (DOE/IG-0626, November 2003).
         The Department spends more than $2 billion annually on information technology resources.
         In the past year, a number of OIG reports highlighted internal control weaknesses that
         impact cyber security and the improvement of information technology systems. To its
         credit, the Department's Office of Chief Information Officer is developing corrective actions
         to mitigate cyber-security risks and to improve relevant controls. For instance, the
         Department is finalizing detailed cyber security policy and guidance, and in June 2003
         provided guidance for cyber-security performance measurements. Additionally, the
         Department recently issued DOE Order 205.1, Department of Energy Cyber Management
         Program, which requires that incident reporting procedures, for instance, be developed and
         maintained in Program Cyber Security Plans and Cyber Security Program Plans.
         Additionally, the Office of the Chief Information Officer has drafted a manual for
         addressing inadequate reporting, including guidance on reporting to law enforcement and
         requirements for monthly verification when no reportable incidents occur.

    •    The Department's Unclassified Cyber Security Program 2003, (DOE/IG-0620, September
         2003). We noted a number of improvements in the Department's unclassified cyber security
         program since our last review; however, we observed that problems continue to exist in
         several critical areas. In many instances, the Department had not acted to identify, track and


Page 7                                                                                 Prior Audit Reports
Appendix 2 (continued)

         correct previously reported issues in a timely manner. For instance, we specifically
         observed that the Department had not significantly improved cyber security incident
         reporting. Management had also not established program-level performance metrics to
         guide cyber security program execution or evaluate performance. As a result, the
         Department's unclassified information systems remain vulnerable to attacks that may affect
         the availability or integrity of its information assets.

    •    Management Challenges at the Department of Energy, (DOE/IG-0580, December 2002).
         One of the most serious challenges faced by the Department is Information Technology (IT)
         Management. With an estimated $1.4 billion annual expenditure for IT, it is essential that
         the Department develop and implement an effective IT management investment and control
         process. IT investment and development and cyber protection have suffered in the past
         from program management planning and execution weaknesses. While the Department had
         taken a number of positive steps to improve its unclassified cyber security program, many
         of its critical information systems remained at risk. The report noted that the Department
         had not consistently implemented a risk-based cyber security approach or adequately
         addressed configuration management and access control problems.

    •    The Department's Unclassified Cyber Security Program 2002, (DOE/IG-0567, September
         2002). While the Department had taken positive steps since the last review, many of its
         critical information systems were still at risk. Cyber protection efforts were hampered by
         weaknesses in program management, planning, and execution. The Department had not
         sufficiently strengthened its cyber security policy and guidance, implemented a cyber
         security performance measurement system, or established an effective self-assessment
         program. As a result, the critical systems were at risk of unauthorized or malicious use.
         Furthermore, the potential existed for compromise of sensitive operational and personnel-
         related data. Additional work in policy development and implementation is necessary to
         ensure that critical information technology resources are adequately protected.

    •    Inspection of Cyber Security Standards for Sensitive Personal Information, (DOE/IG-0531,
         November 2001). The report concluded that the Department does not always meet the
         requirements of the Privacy Act of 1974, the Freedom of Information Act (FOIA), or the
         Computer Security Act of 1987 because the Department: (1) does not have a Department-
         wide baseline criteria for protecting Privacy Act/FOIA personal information; (2) does not
         group Privacy Act/FOIA personal information with other unclassified sensitive information
         for protection; and, (3) allows individual sites and program offices to develop differing
         security measures for protection of Privacy Act/FOIA personal information.

    •    Virus Protection Strategies and Cyber Security Incident Reporting, (DOE/IG-0500, April
         2001). The Department's virus protection strategies and cyber security incident reporting
         methods did not adequately protect systems from damage by viruses and did not provide
         sufficient information needed to manage its network intrusion threat. These problems
         existed because the Department had not developed and implemented an effective enterprise-
         wide strategy for virus protection and cyber security incident reporting.

Page 8                                                                                Prior Audit Reports
Appendix 3

                 TRANSCRIPTION OF DRAFT MANAGEMENT COMMENTS

    Except for technical corrections already made in the report, we present the following
    transcription of management's draft comments:

    Overall Reaction

    Management believed that the audit largely focused on six Department sites which had
    consistently reported incidents to the Computer Incident Advisory Capability. It felt that
    expanding the scope of the audit to both reporting and non-reporting sites would have likely
    produced a more complete picture of the Department's incident reporting program and assisted
    in the identification of underlying causes for non-reporting.

    Recommendation No. 1

    Complete revisions and issue revised policy regarding incident reporting. At a minimum,
    include requirements for negative reporting and mechanisms to ensure that Program Cyber
    Security Plans and Cyber Security Program Plans contain reporting guidance.

    Reaction

    Management concurred and stated that an Incident prevention, Warning, Response (IPWAR)
    Manual which defines roles, responsibilities, and processes to prevent, prepare for, detect,
    respond, and report cyber security incidents and includes requirements for program offices and
    sites to categorize and report cyber security incidents and provide monthly validation reports if
    no reportable incidents occur has been drafted. It added that the IPWAR Manual would be
    going through the Department policy review and approval process in October 2003.

    Recommendation No. 2

    Finalize the inventory of sites that should be reporting cyber security incidents.

    Reaction

    Management concurred and stated that during FY 2002, the Department was undergoing a re-
    alignment and consolidation which complicated the development of an accurate list of reporting
    sites. It added that an accurate list, which includes specific contact information, is now
    complete and in use.




Page 9                                                                             Transcribed Comments
Appendix 3 (continued)

    Recommendation No. 3

    Amend and/or develop overall Program Cyber Security Plan, reporting element-level Cyber
    Security Program Plans, and local guidance to address cyber security incident reporting
    consistent with Departmental guidance.

    Reaction

    Management concurred and pointed out that DOE Order 205.1, Department of Energy Cyber
    Security Management Program, states that Heads of Department elements must include
    incident reporting procedures in their overall and reporting element level security plans. It
    indicated that the overall security plan for the National Nuclear Security Administration
    (NNSA) is in the final stage of management review with projected issuance within the next
    30 days. Management also indicated that the Office of Environmental Management (EM) felt
    that the recommendation would have limited effect without additional supporting automated
    processes. It added that the draft overall security plan for EM, for instance, addresses the
    electronic collection and aggregation of information from existing intrusion detection systems
    at field sites.

    Recommendation No. 4

    Establish performance goals to measure implementation of reporting guidance and policies.

    Reaction

    Management concurred and stated that requirements were issued in June 2003 to the Heads of
    Departmental Elements for cyber security performance measurement and quarterly collection of
    data, including nine metrics related to incident reporting such as number of incidents reported
    (successful and unsuccessful); and average time to report to CIAC. It added that the draft
    IPWAR Manual identifies the performance goals for these metrics. Management pointed out
    that the overall security plan for NNSA contains a provision to collect and monitor cyber
    security metrics.




Page 10                                                                         Transcribed Comments
                                                                              IG Report No.: DOE/IG-0631

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
